No. 20-

In the Supreme Court of the United States
LE ROY TORRES, PETITIONER,
v.
TEXAS DEPARTMENT OF PUBLIC SAFETY
CERTIFICATE OF SERVICE
I hereby certify that, in accordance with Supreme Court Rule 29 and this Court’s
Order of April 15, 2020, all parties required to be served have been served with copies
of the foregoing PETITION FOR A WRIT OF CERTIORARI, via e-mail, this 2nd
day of November 2020. All parties had previously consented to electronic service
consistent with this Court’s order of April 15, 2020.
[See Attached Service List]
I declare under penalty of perjury the foregoing is true and correct. Executed on
November 2, 2020.

/s Andrew Tutt
Andrew T. Tutt
Counsel of Record
ARNOLD & PORTER KAYE SCHOLER LLP
601 Massachusetts Ave., NW
Washington, DC 20001
(202) 942-5000
andrew.tutt@arnoldporter.com
November 2, 2020

SERVICE LIST:
Kyle Douglas Hawkins
Solicitor General
Office of the Attorney General
P.O. Box 12548 (MC 059),
Austin, Texas 78711-2548
kyle.hawkins@oag.texas.gov
(512) 936-1700
Jason R. LaFond
Assistant Solicitor General
jason.lafond@oag.texas.gov
Lanora C. Pettit
Assistant Solicitor General
lanora.pettit@oag.texas.gov

2

